XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

November 5, 2019
Via Electronic Filing System and Federal Express
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

United States v. California, No. 19-532
Request for Extension of Time

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on October 22, 2019. The
response to the petition is currently due on November 22, 2019. Pursuant to Rule 30.4,
respondents respectfully request that the time for filing a response be extended by thirty days, up
to and including Monday, December 23, 2019. An extension of time would allow for adequate
time for internal review and would better enable preparation of a response that respondents
believe would be most helpful to the Court. In addition, respondents have received notice from
an amicus curiae of its intent to file a brief in support of the United States’ petition.
Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For
cc:

XAVIER BECERRA
Attorney General of California

Noel J. Francisco
Solicitor General of the United States
United States Department of Justice

